               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-02075-292




    Combined Assessment Program 

            Review of the 

       Bath VA Medical Center 

           Bath, New York 





September 29, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                                  CAP Review of the Bath VA Medical Center, Bath, NY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Bath VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 RRTP           residential rehabilitation treatment program
                 tPA            tissue plasminogen activator
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                               CAP Review of the Bath VA Medical Center, Bath, NY



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MH RRTP ............................................................................................................... 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. Interim VISN Director Comments ......................................................................                      20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            25

  F. Report Distribution .............................................................................................          26

  G. Endnotes ...........................................................................................................       27





VA OIG Office of Healthcare Inspections
                                            CAP Review of the Bath VA Medical Center, Bath, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
August 11, 2014.

Review Results:          The review covered seven activities.               We made no
recommendations in the following five activities:

 Environment of Care
 Medication Management
 Coordination of Care
 Community Living Center Resident Independence and Dignity
 Mental Health Residential Rehabilitation Treatment Program

The facility’s reported accomplishments were the initiation of the Veterans Health
Administration Voices national pilot program and recognition as a Top Performer on Key
Quality Measures® by The Joint Commission.

Recommendations: We made recommendations in the following two activities:
Quality Management: Complete actions from peer reviews, and report them to the Peer
Review Committee.          Ensure the Medical Executive Committee discusses and
documents its approval of the use of another facility’s providers for teledermatology
services. Include the results of proficiency testing and peer reviews when transfusions
did not meet criteria in the Morbidity and Mortality Committee review process.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient, and consistently collect and report required data to
the Veterans Health Administration.

Comments
The Interim Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–24, for




VA OIG Office of Healthcare Inspections                                                      i
                                           CAP Review of the Bath VA Medical Center, Bath, NY


the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                     JOHN D. DAIGH, JR., M.D. 

                                                    Assistant Inspector General for 

                                                       Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                     ii
                                           CAP Review of the Bath VA Medical Center, Bath, NY



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MH RRTP

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through June 30, 2014,
and was done in accordance with OIG standard operating procedures for CAP reviews.
We also asked the facility to provide the status on the recommendations we made in our


VA OIG Office of Healthcare Inspections                                                    1
                                              CAP Review of the Bath VA Medical Center, Bath, NY


previous CAP report (Combined Assessment Program Review of the Bath VA Medical
Center, Bath, New York, Report No.12-01336-235, August 1, 2012).

During this review, we presented crime awareness briefings for 96 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
193 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                        Reported Accomplishments 

VHA Voices National Pilot Program
The VHA Office of Patient Centered Care and Cultural Transformation selected the
facility as one of six sites across the country to offer the VHA Voices program. The
program uses the Southcentral Foundation’s Alaskan health care system model, which
provides health care to native Alaskans. Much like the tribal culture of Alaska, the
model focuses care on relationships, family wellness, community partnerships, and
shared responsibility. The relationship-based culture is built around storytelling.

The VHA Voices program focuses on understanding the military cultural experience and
challenging perceptions or stigmas related to substance abuse and mental illness. The
program uses the power of storytelling to build connections between employees,
veterans, and the local communities. These connections foster empathy, build trust,
and create effective partnerships in health care. During the VHA Voices experience,
employees hear personal stories from the local leadership team, participate in team
building activities, and learn strategies to share their personal stories in an effort to build
stronger connections in support of the mission of serving veterans. The facility rolled
out this program during the summer of 2014 with two initial phases. Twenty to
30 employees experienced VHA Voices in each phase. The facility has scheduled
additional phases for the fall of 2014.

Joint Commission Recognition
On October 30, 2013, the facility was recognized by The Joint Commission as a Top
Performer on Key Quality Measures® for achieving excellence in performance for its
inpatient pneumonia measure set during 2012. The recognition is based on data
reported about evidence-based clinical processes that are shown to improve care for
veterans with pneumonia or at risk for pneumonia.



VA OIG Office of Healthcare Inspections                                                       2
                                                        CAP Review of the Bath VA Medical Center, Bath, NY



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met            Six months of PRC meeting minutes reviewed:
       selected requirements:                            None of the 15 completed actions were
        The PRC was chaired by the Chief of Staff         reported to the PRC.
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 X     Specific telemedicine services met selected      Twelve months of MEC meeting minutes
       requirements:                                    reviewed:
        Services were properly approved.                There was no evidence that the MEC had
        Services were provided and/or received by         approved the use of teledermatology
          appropriately privileged staff.                  services.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                                          CAP Review of the Bath VA Medical Center, Bath, NY


NM               Areas Reviewed (continued)                                  Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 NA    The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
 NA    Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                                         CAP Review of the Bath VA Medical Center, Bath, NY


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Ten months of Morbidity and Mortality
       usage met selected requirements:                  Committee meeting minutes reviewed:
        A committee with appropriate clinical            The review process did not include the results
          membership met at least quarterly to review      of proficiency testing and the results of peer
          blood/transfusions usage.                        reviews when transfusions did not meet
        Additional data elements were routinely           criteria.
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are completed and reported to the Peer Review Committee.

2. We recommended that the Medical Executive Committee discuss and document its
approval of the use of another facility’s providers for teledermatology services.

3. We recommended that processes be strengthened to ensure that the Morbidity and
Mortality Committee review process includes the results of proficiency testing and the results of
peer reviews when transfusions did not meet criteria.




VA OIG Office of Healthcare Inspections                                                                  5
                                                       CAP Review of the Bath VA Medical Center, Bath, NY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected three CLC units and the medical inpatient unit. We also inspected the urgent
care, primary care, and eye clinics. Additionally, we reviewed relevant documents and
conversed with key employees and managers. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM            Areas Reviewed for General EOC                              Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.               
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
NA     Designated SDS and PACU employees                
       received bloodborne pathogens training
       during the past 12 months.
NA     Designated SDS employees received medical        
       laser safety training with the frequency
       required by local policy.
NA     Fire safety requirements in SDS and on the       
       PACU were met.
NA     Environmental safety requirements in SDS         
       and on the PACU were met.
NA     SDS medical laser safety requirements were       
       met.




VA OIG Office of Healthcare Inspections                                                                6
                                                      CAP Review of the Bath VA Medical Center, Bath, NY


NM        Areas Reviewed for SDS and the PACU                            Findings
                          (continued)
NA     Infection prevention requirements in SDS and
       on the PACU were met.
NA     Medication safety and security requirements     
       in SDS and on the PACU were met.
NA     Auditory privacy requirements in SDS and on     
       the PACU were met.
NA     The facility complied with any additional       
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
NA     Designated eye clinic employees received        
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye    
       clinic were met.
       Infection prevention requirements in the eye    
       clinic were met.
       Medication safety and security requirements     
       in the eye clinic were met.
NA     Laser safety requirements in the eye clinic     
       were met.
       The facility complied with any additional       
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                               7
                                                         CAP Review of the Bath VA Medical Center, Bath, NY


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed                  with key managers and employees.
Additionally, we reviewed the EHRs of 32 randomly            selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the       areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The       facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  8
                                                        CAP Review of the Bath VA Medical Center, Bath, NY


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of seven patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                     Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 9
                                                          CAP Review of the Bath VA Medical Center, Bath, NY


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 7 patients who experienced stroke symptoms,
and 10 urgent care employee training records, and we conversed with key employees. We also
conducted onsite inspections of the urgent care clinic and one acute inpatient unit. The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Four of the six applicable EHRs did not
       Health stroke scale for each patient within the      contain documented evidence of completed
       expected timeframe.                                  stroke scales.
       Clinicians provided medication (tPA) timely to
       halt the stroke and included all required steps,
       and tPA was in stock or available within
       15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
       Clinicians provided printed stroke education to
       patients upon discharge.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
 X     The facility collected and reported required        The following data were not consistently
       data related to stroke care.                         collected and/or reported to VHA:
                                                            o Percent of eligible patients given tPA
                                                            o Percent of patients with stroke symptoms
                                                                who had the stroke scale completed
                                                            o Percent of patients screened for difficulty
                                                                swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

4. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.




VA OIG Office of Healthcare Inspections                                                                  10
                                               CAP Review of the Bath VA Medical Center, Bath, NY


5. We recommended that the facility consistently collect and report to VHA the percent of
eligible patients given tissue plasminogen activator, the percent of patients with stroke
symptoms who had the stroke scale completed, and the percent of patients screened for
difficulty swallowing before oral intake.




VA OIG Office of Healthcare Inspections                                                       11
                                                        CAP Review of the Bath VA Medical Center, Bath, NY


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 20 EHRs of residents (10 residents receiving restorative nursing services and
10 residents not receiving restorative nursing services but candidates for services). We also
observed 10 residents during 2 meal periods, reviewed 2 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                     Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                12
                                                   CAP Review of the Bath VA Medical Center, Bath, NY


NM        Areas Reviewed for Assistive Eating                           Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                           13
                                                        CAP Review of the Bath VA Medical Center, Bath, NY


MH RRTP
The purpose of this review was to determine whether the facility’s domiciliary complied with
selected EOC requirements.g

We reviewed relevant documents, inspected the domiciliary unit, and conversed with key
employees. The table below shows the areas reviewed for this topic. Any items that did not
apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

NM                     Areas Reviewed                                      Findings
       The residential environment was clean and in
       good repair.
 NA    Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
       Monthly MH RRTP self-inspections were
       conducted, documented, and included all
       required elements; work orders were
       submitted for items needing repair; and any
       identified deficiencies were corrected.
       Contraband inspections, staff rounds of all
       public spaces, daily bed checks, and resident
       room inspections for unsecured medications
       were conducted and documented.
       Written agreements acknowledging resident
       responsibility for medication security were in
       place.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the
       process(es).
       In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.




VA OIG Office of Healthcare Inspections                                                                14
                                                     CAP Review of the Bath VA Medical Center, Bath, NY


NM             Areas Reviewed (continued)                               Findings
       Medications in resident rooms were secured.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                             15
                                                          CAP Review of the Bath VA Medical Center, Bath, NY
                                                                                                Appendix A


       Facility Profile (Bath/528A6) FY 2014 through July 20141
Type of Organization                                                                      Secondary
Complexity Level                                                                          3-Low complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $75.8
Number of:
    Unique Patients                                                                      11,455
    Outpatient Visits                                                                    136,770
    Unique Employees2                                                                    540
Type and Number of Operating Beds:
    Hospital                                                                             15
    CLC                                                                                  160
    MH                                                                                   187
Average Daily Census (June 2014):
    Hospital                                                                             4
    CLC                                                                                  72
    MH                                                                                   170
Number of Community Based Outpatient Clinics                                              2
Location(s)/Station Number(s)                                                             Elmira/528G4
                                                                                          Wellsville/528G8
VISN Number                                                                               2




1
    All data is for FY 2014 through July 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                      16
                                                                            CAP Review of the Bath VA Medical Center, Bath, NY
                                                                                                                  Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                    17
                                                            CAP Review of the Bath VA Medical Center, Bath, NY



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                    18
                                                                                                                     CAP Review of the Bath VA Medical Center, Bath, NY


                                                                         Metric Definitions
 Measure                       Definition                                                                                    Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)             A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                       A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                 A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                    A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                          A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                   A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)                A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                 A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                             A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                        A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                          A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)                A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                          A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)             A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)      A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                         A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                              A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                                A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                       A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                          A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                         A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                     A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                        A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                       A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                           A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                                A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)    A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                    19
                                             CAP Review of the Bath VA Medical Center, Bath, NY
                                                                                   Appendix C
                       Interim VISN Director Comments



               Department of
               Veterans Affairs                               Memorandum


           Date:       September 12, 2014

          From:        Interim Director, VA Health Care Upstate New York (10N2)

       Subject:        CAP Review of the Bath VA Medical Center, Bath, NY

             To:       Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Review of the findings contained in the subject Combined Assessment
          Program Review conducted during the week of August 11, 2014 has
          been completed. We concur with the findings noted therein, and
          submit for your review and approval our recommendations to resolve
          the identified findings.

       2. Should you have any questions, please contact Karen Strobel,
          VISN 2 Quality Management Officer, at (518) 626-7325.




VA OIG Office of Healthcare Inspections                                                     20
                                            CAP Review of the Bath VA Medical Center, Bath, NY
                                                                                  Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                              Memorandum


           Date:       September 4, 2014

          From:        Director, Bath VA Medical Center (528A6/00)

       Subject:        CAP Review of the Bath VA Medical Center, Bath, NY

             To:       Interim Director, VA Health Care Upstate New York (10N2)

       1. Review of the findings contained in the subject Combined Assessment
          Program Review conducted during the week of August 11, 2014 has
          been completed. We concur with the findings noted therein, and
          submit for your review and approval our recommendations to resolve
          the identified findings.

       2. Should you have any questions, please contact Debra McRae, Quality
          Management, at (607) 664-4879.




           Michael J. Swartz, FACHE




VA OIG Office of Healthcare Inspections                                                    21
                                           CAP Review of the Bath VA Medical Center, Bath, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are completed and reported to the Peer Review Committee.

Concur

Target date for completion: September 9, 2014

Facility response: The Peer Review Committee monthly meeting agenda/minutes have
been modified to include a spreadsheet for monitoring actions from peer reviews
through their completion. Beginning with the September 9, 2014 Peer Review
Committee meeting, as actions are recommended or required, responsibility for
completion of the actions will be assigned. Responsible party will report on status of
actions to the Peer Review Committee (monthly) through the actions closure. Minutes
of the Peer Review Committee will reflect status of actions through closure.

Recommendation 2. We recommended that the Medical Executive Committee discuss
and document its approval of the use of another facility’s providers for teledermatology
services.

Concur

Target date for completion: September 18, 2014

Facility response: Teledermatology Memorandum of Understanding between the
providing facility and receiving facility for Telehealth Credentialing and Privileging
signed by the Medical Center Directors and Chiefs of Staff was presented at the
August 21,    2014     meeting    of     the  Medical    Executive    Committee     for
discussion/consideration/approval.

Teledermatology Telehealth Service Agreement detailing operations of telehealth
services between the providing facility and receiving facility, signed by Chiefs of Staff
and Facility Telehealth Coordinators was presented at the August 21, 2014 meeting of
Medical Executive Committee for discussion/consideration/approval.

As Teledermatology Memorandums of Understanding or Service Agreements change
or require renewal, they will be presented to Medical Executive Committee for
approval.     Minutes of Medical Executive Committee meetings will reflect
discussion/consideration/approval.




VA OIG Office of Healthcare Inspections                                                   22
                                            CAP Review of the Bath VA Medical Center, Bath, NY


Recommendation 3. We recommended that processes be strengthened to ensure that
the Morbidity and Mortality Committee review process includes the results of proficiency
testing and the results of peer reviews when transfusions did not meet criteria.

Concur

Target date for completion: January 1, 2015

Facility response: Morbidity and Mortality Committee meeting agenda was modified to
add as standing items: the Blood Bank reporting of results of proficiency testing and
results of peer reviews when transfusions did not meet criteria. Oversight of compliance
with this recommendation will be reported semi-annually to Executive Committee of the
Medical Staff.

Recommendation 4. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: October 31, 2014

Facility response: Any patient presenting to the Urgent Care Clinic experiencing
symptoms of Acute Ischemic Stroke will have a National Institute of Health stroke scale
completed by the clinician responsible for evaluation. The results of the National
Institute of Health stroke scale will be documented by the evaluating clinician in the
patient’s electronic health record. Any patient transferred by emergency medical
services directly to a non-VA facility with symptoms of an Acute Ischemic Stroke will be
clinically followed (to include elements of Acute Ischemic Stroke measures for Inpatient
Evaluation Center (IPEC) data) through Utilization Management contact with the
Non-VA facility case manager. Utilization Management will document reported results
of Acute Ischemic Stroke measures in the patient’s electronic health record. Review will
be conducted by Quality Management on 100% of qualifying records to monitor
compliance with this requirement.

Recommendation 5. We recommended that the facility consistently collect and report
to VHA the percent of eligible patients given tissue plasminogen activator, the percent of
patients with stroke symptoms who had the stroke scale completed, and the percent of
patients screened for difficulty swallowing before oral intake.

Concur

Target date for completion: December 31, 2014

Facility response: Acute Ischemic Stroke measures for Inpatient Evaluation Center
(IPEC) data, including percent of eligible patients given tissue plasminogen activator,
percent of patients with stoke symptoms who had the NIH stroke scale completed and
percent of patients screened for difficulty swallowing before oral intake, will be captured


VA OIG Office of Healthcare Inspections                                                    23
                                          CAP Review of the Bath VA Medical Center, Bath, NY


by assigned clinical and Quality Management staff on a spreadsheet in the Secure Data
Sharing Site folder of Bath VA Medical Center SharePoint. Data will be collected and
reported for patients presenting to urgent Care Clinic with symptoms and those that are
transferred from the Bath VA to a non-VA acute care facility.




VA OIG Office of Healthcare Inspections                                                  24
                                             CAP Review of the Bath VA Medical Center, Bath, NY
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Elaine Kahigian, RN, JD, Team Leader
Contributors            Annette Acosta, RN, MN
                        Francis Keslof, EMT, MHA
                        Jeanne Martin, PharmD
                        Emorfia Valkanos, RPh
                        Jeff Stachowiak, Resident Agent in Charge, Office of
                           Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     25
                                              CAP Review of the Bath VA Medical Center, Bath, NY
                                                                                    Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Interim Director, VA Health Care Upstate New York (10N2)
Director, Bath VA Medical Center (528A6/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Tom Reed


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      26
                                                        CAP Review of the Bath VA Medical Center, Bath, NY
                                                                                             Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        27
                                                      CAP Review of the Bath VA Medical Center, Bath, NY



g
    References used for this topic were: 

 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP), 

    December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
    Protection Association.




VA OIG Office of Healthcare Inspections                                                                      28
